TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Significant Discrepancies Exist Between
                     Alimony Deductions Claimed by Payers
                      and Income Reported by Recipients



                                          March 31, 2014

                              Reference Number: 2014-40-022




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2 = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                HIGHLIGHTS


SIGNIFICANT DISCREPANCIES EXIST                     There is a discrepancy of more than $2.3 billion
BETWEEN ALIMONY DEDUCTIONS                          in deductions claimed without corresponding
CLAIMED BY PAYERS AND INCOME                        income reported.
REPORTED BY RECIPIENTS                              Apart from examining a small number of tax
                                                    returns, the IRS generally has no processes or
                                                    procedures to address this substantial
Highlights                                          compliance gap.

Final Report issued on                              IRS processes also do not ensure that
March 31, 2014                                      individuals provide a valid recipient Taxpayer
                                                    Identification Number (TIN) when claiming an
                                                    alimony deduction as required. TIGTA’s
Highlights of Reference Number: 2014-40-022
                                                    analysis of the 567,887 Tax Year 2010 returns
to the Internal Revenue Commissioners for the
                                                    that claimed an alimony deduction identified an
Small Business/Self-Employed Division and
                                                    estimated 6,500 tax returns claiming an alimony
the Wage and Investment Division.
                                                    deduction for which the IRS did not identify that
IMPACT ON TAXPAYERS                                 the recipient TIN was missing or invalid. In
                                                    addition, because of errors in IRS processing
Alimony is a payment to or for a spouse or          instructions, the IRS did not assess penalties
former spouse under a divorce or separation         totaling $324,900 on individuals who did not
instrument. In Tax Year 2010, a total of 567,887    provide a valid recipient TIN as required.
taxpayers claimed alimony deductions totaling
more than $10 billion. An alimony income            WHAT TIGTA RECOMMENDED
reporting discrepancy occurs when individuals
                                                    TIGTA recommended that the Commissioner,
claim deductions for alimony which they did not
                                                    Small Business/Self-Employed Division, work
pay or individuals do not report alimony income
                                                    with the Commissioner, Wage and Investment
they received.
                                                    Division, to evaluate current examination filters
WHY TIGTA DID THE AUDIT                             to ensure that potentially high-risk tax returns
                                                    are not inappropriately excluded from
Individuals who pay alimony can deduct the          examination and develop a strategy to address
amount paid from income on their tax return to      the significant alimony compliance gap. TIGTA
reduce the amount of tax an individual must pay.    also recommended that the Commissioner,
Conversely, individuals who receive alimony         Wage and Investment Division, revise processes
must claim the amount received as income on         and procedures to verify that all tax returns
their tax return. TIGTA initiated this audit to     include a valid recipient TIN when claiming an
evaluate the alimony reporting gap and to           alimony deduction and correct errors in IRS
assess controls the IRS has in place to promote     processing instructions to ensure that a penalty
reporting compliance.                               is accurately assessed on all tax returns on
                                                    which a valid recipient TIN is not provided.
WHAT TIGTA FOUND
                                                    The IRS agreed with three recommendations
Processes have not been developed to address
                                                    and disagreed with one recommendation. The
the majority of discrepancies between alimony
                                                    IRS stated that it enhanced its examination
deductions claimed and income reported.
                                                    filters and will continue to review and improve its
TIGTA’s analysis of the 567,887 Tax Year 2010
                                                    strategy to reduce the compliance gap. In
returns with an alimony deduction claim
                                                    addition, the IRS revised procedures to ensure
identified 266,190 (47 percent) tax returns in
                                                    that penalties are assessed when appropriate.
which it appears that individuals claimed alimony
                                                    However, because the IRS does not have the
deductions for which income was not reported
                                                    authority to deny alimony deductions outside of
on a corresponding recipient’s tax return or the
                                                    deficiency processing, it believes verification of
amount of alimony income reported did not
                                                    the deduction is more efficiently performed in its
agree with the amount of the deduction taken.
                                                    Compliance function.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 31, 2014


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Significant Discrepancies Exist Between Alimony
                             Deductions Claimed by Payers and Income Reported by Recipients
                             (Audit #201240016)

 This report presents the results of our review to evaluate discrepancies in alimony reporting and
 to assess controls the Internal Revenue Service (IRS) has in place to promote reporting
 compliance. This audit was included in our Fiscal Year 2012 Annual Audit Plan and addresses
 the major management challenge of Fraudulent Claims and Improper Payments.
 Management’s complete response to the draft report is included in Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Russell P. Martin, Acting
 Assistant Inspector General for Audit (Returns Processing and Account Services).
                                           Significant Discrepancies Exist
                                    Between Alimony Deductions Claimed by Payers
                                         and Income Reported by Recipients




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Processes Have Not Been Developed to Address the Majority of
          Discrepancies Between Alimony Deductions Claimed and Income
          Reported ........................................................................................................ Page 4
                    Recommendations 1 and 2: .............................................. Page 9

          Processes Do Not Identify All Alimony Deduction Claims Without
          a Valid Recipient Taxpayer Identification Number ...................................... Page 9
                    Recommendations 3 and 4: .............................................. Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Outcome Measures............................................................... Page 18
          Appendix V – Example of a Soft Notice ...................................................... Page 23
          Appendix VI – Management’s Response to the Draft Report ...................... Page 25
                             Significant Discrepancies Exist
                      Between Alimony Deductions Claimed by Payers
                           and Income Reported by Recipients




                               Abbreviations

e-file(d), e-filing     Electronically file(d); electronic filing
IRS                     Internal Revenue Service
TIGTA                   Treasury Inspector General for Tax Administration
TIN                     Taxpayer Identification Number
                                     Significant Discrepancies Exist
                              Between Alimony Deductions Claimed by Payers
                                   and Income Reported by Recipients




                                              Background

Alimony is a payment to or for a spouse or former spouse under a divorce or separation
instrument.1 Individuals who pay alimony can deduct the amount paid from income on their tax
return to reduce the amount of tax they must pay. Conversely, individuals who receive alimony
must claim the amount received as income on their tax return.2 More than 1.7 million tax returns
included an alimony deduction claim in Tax Years3 2008 through 2010. Of those, approximately
1.2 million tax returns (71 percent) were filed electronically (e-filed) and 520,000 tax returns
(31 percent) were filed on paper.4 Figure 1 provides details of the total number of individuals
claiming an alimony deduction and the amount claimed for Tax Years 2008 through 2010.
             Figure 1: Alimony Deductions – Tax Years 2008 Through 2010

                             Tax Year 2008          Tax Year 2009          Tax Year 2010              Total

    Tax Returns                 577,003                 573,904                567,887             1,718,794

    Alimony Deduction
                               $9.9 billion           $10.4 billion           $10 billion         $30.3 billion
    Claimed

Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of the Internal Revenue Service (IRS)
Individual Return Transaction File5for Tax Years 2008 through 2010.

Processing tax returns with alimony deductions
Individuals who pay alimony report the amount paid as a deduction on Line 31a (Alimony Paid)
on Form 1040, U.S. Individual Income Tax Return. These individuals are required to include the
Taxpayer Identification Number (TIN)6 of the recipient on Line 31b of their tax return. Figure 2
provides an illustration of Form 1040 Line 31.


1
  Divorce or separation instrument includes a decree of divorce, a written separation agreement, or a decree or any
type of court order requiring a spouse to make payments for the support or maintenance of the other spouse.
2
  Individuals who receive alimony income are not required to file a tax return if their total income is below the
minimum income required to have a tax return filing requirement. In Tax Year 2010, individuals who had less than
$9,350 in income ($18,700 if married filing jointly) were not required to file a tax return.
3
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
4
  Percentages do not equal 100 percent due to rounding.
5
  A database the IRS maintains that contains information on the individual tax returns it receives.
6
  A nine-digit number assigned to taxpayers for identification purposes. Depending upon the nature of the taxpayer,
the TIN is an Employer Identification Number, a Social Security Number, or an Individual TIN.


                                                                                                           Page 1
                                     Significant Discrepancies Exist
                              Between Alimony Deductions Claimed by Payers
                                   and Income Reported by Recipients


                Figure 2: Tax Year 2012 Form 1040 Line 31 – Alimony Paid




     Source: Tax Year 2012 Form 1040.

The IRS rejects an e-filed tax return claiming an alimony deduction if the recipient TIN is
missing or incomplete.7 As of June 19, 2013, the IRS rejected 872 e-filed Tax Year 2012 tax
returns for missing or incomplete recipient TINs. For paper-filed tax returns with missing or
incomplete recipient TINs,8 the IRS will suspend the processing of the tax return and correspond
with the taxpayer to obtain a valid TIN.9
This review was performed in the Wage and Investment Division Submission Processing
function located in Cincinnati, Ohio; the Small Business/Self-Employed Division
Examination function located in Washington, D.C.; and the IRS campuses10 located in
Andover, Massachusetts; Austin, Texas; and Ogden, Utah, during the period August 2012
through August 2013. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed

7
  An incomplete recipient TIN is fewer than nine digits or does not fall within the valid range of numbers issued by
the Social Security Administration.
8
  The IRS was unable to provide us with the number of paper-filed tax returns with a missing or incomplete TIN that
it suspended during processing to correspond with the taxpayer to obtain a corrected TIN. The IRS indicated that
this figure could not be provided because this letter is also used for other issues requiring correspondence with the
taxpayer.
9
  A “valid TIN” is a TIN that matches the information contained on the National Account Profile, which is a
compilation of selected entity data from various master files and the Social Security Administration.
10
   The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.


                                                                                                             Page 2
                               Significant Discrepancies Exist
                        Between Alimony Deductions Claimed by Payers
                             and Income Reported by Recipients


information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 3
                                     Significant Discrepancies Exist
                              Between Alimony Deductions Claimed by Payers
                                   and Income Reported by Recipients




                                      Results of Review

Processes Have Not Been Developed to Address the Majority of
Discrepancies Between Alimony Deductions Claimed and Income
Reported
Our analysis of the 567,887 Tax Year 2010 tax returns with an alimony deduction claim
identified 266,190 (47 percent) tax returns11 in which it appears individuals claimed alimony
deductions for which the corresponding income was either not reported on a recipient’s tax
return or the amount of alimony income reported did not agree with the deduction taken. As
such, there is a discrepancy of more than $2.3 billion in deductions claimed without
corresponding income reported.
Analysis of the tax return filings for the recipient listed by the payer as receiving the alimony
income claimed as a deduction on the 266,190 tax returns identified:
        222,895 (84 percent) tax returns filed by the recipient.
        36,795 (14 percent) with no tax return filed by the recipient; however, the amount of
         alimony deducted as being paid would have required the recipient to file a tax return.12
        6,500 (2 percent) tax returns for which we were unable to determine if the income was
         reported as the recipient TIN provided on the payer tax return was either missing or not
         valid.
The Internal Revenue Code13 states that alimony is deductible by the payer and must be included
in the spouse’s or former spouse’s income. Figure 3 provides an analysis of alimony income
reported by recipients whom the payer claiming the deduction listed as having received alimony
income.



11
   This figure is an estimate based on our review of Tax Year 2010 tax returns as follows: 100 percent of the
447,975 e-filed tax returns claiming an alimony deduction, 100 percent of the 84,562 paper tax returns claiming an
alimony deduction above the amount for which the IRS will capture the recipient TIN listed on the tax return, and a
statistically valid sample of 138 of the 35,350 paper tax returns that claimed an alimony deduction below the amount
for which the IRS will capture the recipient TIN listed on the tax return. See Appendix I for the details of our
analysis.
12
   In Tax Year 2010, individuals who had less than $9,350 in income ($18,700 if married filing jointly) were not
required to file a tax return.
13
   Internal Revenue Code § 215.


                                                                                                            Page 4
                                        Significant Discrepancies Exist
                                 Between Alimony Deductions Claimed by Payers
                                      and Income Reported by Recipients


      Figure 3: Analysis of Income Reported by Alleged Recipients for Tax Year 2010

                                                        Tax          Deductions           Associated Income Not
                                                      Returns     Claimed by Payer        Reported by Recipient

 Tax Return Filed by Recipient                        222,895         $3.3 billion                $1.4 billion

        Alimony Income Was Not Reported               122,870          $1.1 billion               $1.1 billion

        Alimony Income Reported Was Less
                                                       75,383          $1.7 billion             $375.2 million
        Than Deduction Claimed14
        Alimony Income Reported Was More
                                                       24,642        $469.2 million             - $74.6 million
        Than Deduction Claimed

 No Tax Return Filed by Recipient                      36,795        $937.2 million             $937.2 million

 Unable to Determine If Income Was
 Reported – Recipient TIN Missing or                   6,500         $95.7 million          Unable to Determine
 Not Valid

                                          TOTAL       266,190         $4.3 billion                $2.3 billion

Source: TIGTA analysis of Tax Year 2010 tax returns processed through December 31, 2011.

 Apart from examining a small number of tax returns, the IRS has no processes or
 procedures to address the alimony reporting compliance gap
 Each year subsequent to the processing of tax returns, the IRS Examination function performs a
 match of tax returns with alimony deduction claims to associated recipient TIN tax returns. This
 match is performed to identify tax returns for examination that have a high risk for alimony
 deduction noncompliance. For those tax returns selected, the IRS performs an examination to
 determine if the deduction is valid. If the deduction is validated, then the associated recipient
 TIN tax return is reviewed to determine if the alimony income was reported correctly.
 However, the IRS will select for examination only those tax returns in which the alimony
 deduction claim is above a certain dollar amount. For Tax Year 2010, this prevented
 ****2****** of the 266,190 tax returns we identified as having a discrepancy between the
 amount deducted and the amount reported as income from being considered for audit selection.
 These ***2*** tax returns had more than $156 million in alimony deductions claimed for which
 no income was reported on a recipient tax return (the estimated associated reduction in tax
 liability was more than $45 million).



 14
      These returns may include instances in which individuals pay alimony to more than one recipient.


                                                                                                                 Page 5
                                      Significant Discrepancies Exist
                               Between Alimony Deductions Claimed by Payers
                                    and Income Reported by Recipients


Further limiting the effectiveness of IRS efforts to address alimony deduction and income
discrepancies is that the number of examinations the IRS conducts is based on the allocation of
limited examination resources. For example, the IRS selected only 10,870 of the remaining
188,468 Tax Year 2010 returns for examination.

Examination selection filters may inappropriately exclude tax returns with
high-risk characteristics
Once the IRS performs the match of tax returns with alimony deduction claims to associated
recipient TIN tax returns, it applies exclusionary filters to better identify those high-risk tax
returns it will consider for examination. These filters are designed to exclude tax returns with
certain characteristics that the IRS believes represent a low risk of alimony deduction/income
noncompliance. The IRS has developed seven filters to assist it in identifying tax returns with
the highest risk of alimony noncompliance. However, our review of the filter criteria identified
three filters that we believe may inappropriately exclude some alimony deduction claims that in
fact have high-risk characteristics from being selected for examination.15 Figure 4 provides an
overview of the questionable examination filters we identified.
         Figure 4: Filters That May Inappropriately Exclude Tax Returns With
     Questionable Alimony Deduction Claims From Being Selected for Examination

                                                     Reason the Filter Inappropriately Excludes
             Description
                                                     Tax Returns With High-Risk Characteristics
***************2******************         *******************************2********************************
*****************2*********.               *********2************.
                                           *****************************2*******************************************
                                           *******************************2*****************************************
***********2****************************   *******************************2*****************************************
********2**********                        ********************************2****************************************
                                           **************************.16 *2*******************
                                           ***************************2************************
                                           ***************************2*********************************************
*****************2**********************   ***************************2*********************************************
*****************2**********************   ***************************2*********************************************
***********2**************                 ***************************2*********************************************
                                           *******************2******************.
Source: TIGTA analysis of IRS alimony program examination filters.


15
   The filters would only prevent the returns from being examined for the alimony deduction; the returns could still
be considered for other examinations.
16
   ************************************2*****************************************************
**********************************2******************************.


                                                                                                              Page 6
                                    Significant Discrepancies Exist
                             Between Alimony Deductions Claimed by Payers
                                  and Income Reported by Recipients


We notified the IRS of our concerns regarding the examination filters in February 2013. IRS
management indicated that studies show that examining tax returns selected by these filters is
less cost effective than tax returns with other types of potential reporting errors. However, the
IRS was unable to provide us these studies.

Soft notices could help address the discrepancies between alimony deductions
claimed and income reported
Apart from examining a small number of tax returns, the IRS generally has no processes or
procedures to address this substantial compliance gap. The use of soft notices could significantly
expand the IRS’s ability to address the discrepancies between alimony deducted and the amounts
claimed by recipients as income. For example, soft notices could alert individuals to potential
errors on their tax return related to the claiming of an alimony deduction or the nonreporting of
alimony income as required.
The IRS uses soft notices to address noncompliance in other areas of the tax system. The notices
commonly provide individuals with information specific to the eligibility or reporting
requirements related to the potential error and suggest the filing of a Form 1040X, Amended U.S.
Individual Income Tax Return, if an error has occurred. For example, in September 2010, we
reported that the IRS issues notices to individuals involved in multiple dependent TIN uses.17
These notices are issued to individuals who have used dependent TINs to obtain tax deductions
or credits on their return when those same dependent TINs have already been used on other
taxpayers’ returns.
The IRS estimates the current cost to print and mail a soft notice as $0.57. If issuance of the
notice results in a contact from the individual receiving the notice or an amended tax return being
filed to correct an error, the cost to address the individual’s response could be up to $33.21. A
May 2009 IRS study on the effectiveness of the notices sent to individuals with multiple uses of
the same dependent TIN found that 10 percent of the individuals who received a notice amended
their original tax return and 92 percent changed their filing behavior in the subsequent tax year.
An example of a soft notice can be found in Appendix V.
IRS management raised concerns with the use of soft notices to address the discrepancies
between alimony deducted and income claimed because it would create additional work for
which the IRS does not have the resources to address. For example, additional resources would
be needed to process the amended tax returns generated by the notice. Nonetheless, the
alternative is to permit the omission of income or overclaims of deductions even in those
instances when the IRS has evidence of the problem. This would be at odds with the IRS’s
general practices when the IRS has information from a payer (such as a Form 1099) indicating

17
  TIGTA, Ref. No. 2010-40-117, Multiple Use of Taxpayer Identification Numbers Continues to Result in
Significant Erroneous Exemptions and Credits (Sept. 2010).


                                                                                                        Page 7
                                        Significant Discrepancies Exist
                                 Between Alimony Deductions Claimed by Payers
                                      and Income Reported by Recipients


 that a recipient omitted income. Moreover, it would forego an even greater benefit, as shown in
 the 2009 IRS study, that the majority of individuals receiving a soft notice change their behavior
 in a subsequent tax year.
 The results of examinations of returns with this issue are further indication that additional action
 is needed. Examinations show that the rate of noncompliance is high. Most of the tax returns
 examined result in an adjustment of a deduction taken or an assessment related to income not
 reported. As of December 31, 2013, the IRS closed examinations on 8,837 of the 10,870 tax
 returns that it selected for examination and adjusted deductions of more than $26 million on
 4,950 (56 percent) of the 8,837 tax returns. The examinations of the payers who claimed the
 deductions led to an additional 2,075 examinations of the alimony recipients’ tax returns to date,
 1,639 of these have been completed and closed, which resulted in assessments of more than
 $5 million on 1,372 (83 percent) of the recipients’ tax returns.
 Based on the results of completed IRS examinations, we estimate that noncompliance with
 regard to those returns not selected for examination totals more than $351 million in unreported
 tax resulting from an erroneous deduction or unreported income. Over five years, this could
 result in more than $1.7 billion in unreported tax. Figure 5 provides a breakdown of the
 estimated revenue loss resulting from this substantial compliance gap.18
         Figure 5: Estimated Revenue Loss From Unexamined Erroneous Alimony
                       Deductions and Unreported Alimony Income19

                                                Tax Returns      Total Alimony               Tax Effect

 Unexamined Alimony Deductions                    139,339          $1.19 billion           $274.1 million

 Unexamined Alimony Income                          90,869        $777.7 million            $77.7 million

                                      Total       230,208         $1.97 billion            $351.8 million

Source: TIGTA analysis of Tax Year 2010 tax returns processed through December 31, 2011, and IRS closed
examination statistics.




 18
      See Appendix IV for details of our computation.
 19
      Numbers may not total due to rounding.


                                                                                                          Page 8
                                 Significant Discrepancies Exist
                          Between Alimony Deductions Claimed by Payers
                               and Income Reported by Recipients


Recommendations
The Commissioner, Small Business/Self-Employed Division, should work with the
Commissioner, Wage and Investment Division, to:
Recommendation 1: Evaluate current examination selection filters to ensure that the filters
do not inappropriately exclude potentially high-risk tax returns with questionable alimony
deduction claims.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       enhanced filters for Tax Year 2013 (Filing Season 2014). The Small Business/
       Self-Employed Division will continue to work with the Wage and Investment Division to
       review the current alimony filters and make improvements as necessary.
Recommendation 2: Develop a strategy that adequately addresses the significant alimony
compliance gap. This strategy should include determining the net benefit of using soft notices as
an alternative approach to address this issue, as well as actions the IRS plans to take with regard
to individuals who continue to misreport alimony deductions and/or income.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       currently has procedures in place to address the alimony compliance gap and will
       continue to review and improve its strategy as warranted. The IRS also agreed that
       sending soft notices may be a valid approach in certain circumstances. However, the IRS
       stated that resource constraints limit the IRS’s ability to test their impact at this time.
       Instead, the IRS will continue to improve its current strategy including making changes to
       the examination filters.
       Office of Audit Comment: Although the IRS agreed with our recommendation, the
       IRS disagreed with our outcome measure of $1.7 billion in potential revenue protected
       because it does not have the ability to audit all the tax returns cited in our report.
       However, we did not recommend that the IRS examine more tax returns. We
       recommended that the IRS develop a strategy, including the use of less costly
       non-examination processes, to more adequately address the alimony reporting gap. Such
       a strategy should ensure the most efficient use of resources to achieve the most
       significant improvement in taxpayer compliance possible. Our outcome measure reflects
       the potential unreported revenue we believe the IRS could address by developing such a
       strategy.

Processes Do Not Identify All Alimony Deduction Claims Without a
Valid Recipient Taxpayer Identification Number
IRS processes do not identify all alimony deduction claims in which the payer did not provide a
valid recipient TIN as required. Analysis of the 567,887 Tax Year 2010 returns that claimed an

                                                                                            Page 9
                                     Significant Discrepancies Exist
                              Between Alimony Deductions Claimed by Payers
                                   and Income Reported by Recipients


alimony deduction identified an estimated 6,500 tax returns claiming more than $95 million in
alimony deductions that the IRS did not identify in which the recipient TIN was either missing or
invalid. These individuals may have inappropriately reduced their Tax Year 2010 tax liability by
more than $27 million. Figure 6 provides the details of our analysis of alimony recipient TINs
for Tax Year 2010 returns.
          Figure 6: Estimated Alimony Deductions Claimed With a Missing or
                        Invalid Recipient TIN for Tax Year 2010

                                         Number of           Potentially Erroneous            Estimated
                                        Tax Returns          Alimony Deductions               Tax Effect

        Tax Returns With
                                            6,500                 $95.7 million              $27.5 million
        Alimony Deductions
            Tax Returns With a
                                            3,771                 $59.9 million              $18.1 million
            Missing Recipient TIN
            Tax Returns With an
                                            2,729                 $35.8 million               $9.4 million
            Invalid Recipient TIN
      Source: TIGTA analysis of IRS Individual Return Transaction File information for Tax Year 2010.

Internal Revenue Code Section 215 states:
         (1) Any individual receiving alimony or separate maintenance payments is
         required to furnish such individual’s taxpayer identification number to the
         individual making such payments, and
         (2) The individual making such payments is required to include such taxpayer
         identification number on such individual’s return for the taxable year in which
         such payments are made.
The IRS does not verify whether a recipient TIN is provided as required for alimony deduction
claims filed on a paper tax return when the amount claimed is below a certain dollar tolerance.
In addition, the IRS is not using the National Account Profile20 to ensure that the recipient TIN
provided on both paper and e-filed tax returns is valid. The IRS uses the National Account
Profile to validate the primary taxpayer, spouse, and dependent TINs as well as TINs used to
claim tax benefits such as the Earned Income Tax Credit, the Child Tax Credit, and the American
Opportunity Tax Credit.




20
  The National Account Profile is a compilation of selected entity data from various master files and the Social
Security Administration.


                                                                                                             Page 10
                                        Significant Discrepancies Exist
                                 Between Alimony Deductions Claimed by Payers
                                      and Income Reported by Recipients


Due to errors in IRS processing instructions, penalties for missing or invalid
alimony recipient TINs are rarely assessed
The purpose of penalties is to encourage voluntary compliance by imposing consequences for
noncompliance. The Internal Revenue Code authorizes the IRS to assess a $50 penalty when an
individual does not provide a valid alimony recipient TIN as required. Internal Revenue Code
Section 6723 states:
           In the case of a failure by any person to comply with a specified information
           reporting requirement on or before the time prescribed therefore, such person
           shall pay a penalty of $50 for each such failure, but the total amount imposed on
           such person for all such failures during any calendar year shall not exceed
           $100,000.
Our analysis of the estimated 6,500 tax returns we identified with a missing or invalid recipient
TIN found that the IRS assessed the recipient TIN penalty on only 20 of the 6,500 tax returns. In
addition, for those assessed, the amount was $5 instead of $50 (the IRS could not provide an
explanation as to why the $5 was assessed on these 20 accounts). As a result, the IRS did not
assess $324,900 in penalties for a missing or invalid recipient TIN. We estimate that the IRS
may not assess more than $1.6 million in applicable penalties over the next five years as a result
of weaknesses in its processes to identify missing or invalid recipient TINs.
In December 2012, we notified the IRS that the penalty for not providing a valid recipient TIN
was not being assessed. The IRS agreed and indicated that this was due to incorrect processing
instructions. Processing guidelines correctly instructed IRS employees to notate the tax return
when the recipient TIN was missing. However, the instructions did not direct employees to code
the tax return so that it would be forwarded to the IRS Error Resolution function for
correspondence with the taxpayer and assessment of the penalty if warranted.
IRS management indicated that the processing instructions were revised on May 22, 2013, to
correct the error. However, our review of a judgmental sample21 of 60 tax returns processed
between June 28 and July 18, 2013, that met the IRS’s existing penalty criteria found that none
of the taxpayers had been assessed a penalty even though the recipient TIN was missing or
invalid and the amount of the deduction was above the examination dollar tolerance. We
notified the IRS on August 21, 2013, that the newly revised processing instructions had not
corrected the problem.




21
     A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.


                                                                                                               Page 11
                                 Significant Discrepancies Exist
                          Between Alimony Deductions Claimed by Payers
                               and Income Reported by Recipients


Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Revise processes and procedures to ensure that all tax returns are
verified for a required valid recipient TIN when an alimony deduction is claimed. These
processes should include rejecting e-filed tax returns and sending paper tax returns to the IRS
Error Resolution function for correspondence with the taxpayer.
       Management’s Response: The IRS disagreed with this recommendation. The IRS
       stated that because the IRS does not possess the authority to deny the alimony deduction
       outside of deficiency procedures, the validation process is more efficiently performed
       within its Compliance function. The IRS also stated that the IRS Error Resolution
       function will either correspond with the taxpayer to obtain the TIN when the deduction
       meets certain criteria or assess a penalty for failure to provide the recipient TIN.
       Office of Audit Comment: In addition to disagreeing with our recommendation, the
       IRS also disagreed with our outcome measure of $137 million in potential revenue
       protected. As stated in our report, the IRS’s current verification processes are not
       sufficient to identify all invalid recipient TINs. In addition, the lack of authority to deny
       an alimony deduction claim without conducting an examination does not preclude the
       IRS from notifying taxpayers that they are not compliant with the alimony reporting
       requirements. IRS examination program data show that the IRS examines very few tax
       returns for which there is an alimony reporting discrepancy. Establishing processes to
       communicate with all taxpayers who do not provide a valid recipient TIN provides the
       taxpayer the opportunity to voluntarily comply. Notifying taxpayers that the IRS is
       aware of their noncompliance may also deter taxpayers from making improper alimony
       deduction claims. As such, we believe our recommendation and the related outcome
       fairly represent the potential benefit the IRS could achieve by expanding efforts to obtain
       valid alimony recipient TINs for all alimony deduction claims.
Recommendation 4: Revise IRS processing instructions to ensure that penalties are assessed
on applicable tax returns with an alimony deduction claim where a valid recipient TIN was not
provided and ensure that the penalty is assessed in the correct amount.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       revised processing instructions on February 26, 2014, to ensure that all returns claiming a
       deduction for alimony paid are subject to the appropriate penalty provision when the
       alimony recipient’s TIN is not provided and to ensure that the penalty is assessed in the
       correct amount. The IRS agreed with our outcome measure of $1.6 million in penalty
       assessments.




                                                                                            Page 12
                                     Significant Discrepancies Exist
                              Between Alimony Deductions Claimed by Payers
                                   and Income Reported by Recipients


                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the alimony reporting gap and to assess
controls the IRS has in place to promote reporting compliance. To accomplish our objective, we:
I.      Evaluated the alimony reporting gap for Tax Year1 2010.
        A. Identified 567,887 individuals on the IRS Individual Return Transaction File2 who
           claimed an alimony deduction in Tax Year 2010. We verified the accuracy and
           reliability of the data obtained from the sources above by comparing 60 tax returns
           (30 paper tax returns and 30 e-filed tax returns) to the returns originally filed by these
           60 individuals. The data were determined to be sufficiently reliable for the purposes
           of the audit.
        B. Identified 266,190 of the 567,887 tax returns in which the deduction amount did not
           agree with the income amount reported on the associated recipient tax return. To
           determine if a reporting discrepancy existed, we analyzed all 447,975 e-filed tax
           returns claiming an alimony deduction, the 84,562 paper tax returns claiming an
           alimony deduction above the examination dollar tolerance, and a statistically valid
           sample of 138 of the 35,350 paper tax returns claiming an alimony deduction below
           the examination dollar tolerance. We were unable to analyze all 35,350 tax returns
           with an alimony deduction below the examination dollar tolerance because the IRS
           does not capture the information needed to conduct such an analysis.
II.     Assessed the effectiveness of the IRS’s controls to detect and prevent erroneous alimony
        deduction claims.
        A. Interviewed IRS management to identify the controls in place to identify and resolve
           discrepancies between amounts claimed as alimony deductions and amounts reported
           as alimony income.
        B. Evaluated the adequacy of the IRS’s process to identify tax returns claiming alimony
           deductions for potential examination. We reviewed a statistically valid sample of
           385 tax returns that claimed an alimony deduction to determine if the tax returns were



1
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
2
  A database the IRS maintains that contains information on the individual tax returns it receives.


                                                                                                         Page 13
                                     Significant Discrepancies Exist
                              Between Alimony Deductions Claimed by Payers
                                   and Income Reported by Recipients


             identified for examination consideration. We also determined if the IRS examined
             the associated recipient tax return to verify income when appropriate.
         C. Evaluated the effectiveness of the IRS’s processes to detect and prevent alimony
            deduction claims with a missing or invalid recipient TIN. We identified the IRS’s
            processes for identifying and preventing alimony deductions when the recipient TIN
            is missing or invalid. Using the Individual Return Transaction File and the National
            Account Profile,3 we identified 6,500 Tax Year 2010 tax returns with a missing or
            invalid recipient TIN that were not detected by the IRS’s processes.
         D. Reviewed the Individual Return Transaction File for the 6,500 tax returns with a
            missing or invalid recipient TIN to determine if the IRS assessed the $50 penalty for a
            missing or invalid recipient TIN.
Sampling criteria
We selected and reviewed a statistically valid sample of 138 taxpayers from a population of
35,350 taxpayers filing a paper return claiming a deduction for alimony less than the IRS
examination dollar tolerance in Tax Year 2010. A statistical sample was used to allow the
results to be projected to the overall population. We relied on TIGTA’s contract statistician to
verify our sampling methods.
We selected our sample using a 95 percent confidence level, a ± 5 percent precision, and a
10 percent estimated error rate. Our review of the sample identified 79 tax returns in which
alimony does not appear to have been correctly reported by the payer or the recipient. This
resulted in a 57 percent error rate and a standard error deviation of + 2,923 (17,314 to
23,160).
In addition, we selected a judgmental sample of 60 tax returns processed between June 28
and July 18, 2013, that met the IRS’s existing penalty criteria to determine whether taxpayers
had been assessed a penalty even though the recipient TIN was missing or invalid and the
amount of the deduction was above the examination dollar tolerance.4 The sample was
selected to evaluate the adequacy of actions taken to address concerns we raised to the IRS
on May 22, 2013, regarding the nonassessment of the alimony penalty when applicable. We
used a judgmental sample because the process we were evaluating is systemic in nature and
we were not projecting the results of the sample.



3
  The National Account Profile is a compilation of selected entity data from various master files and the Social
Security Administration.
4
  We did not attempt to determine the population from which the sample was selected because the sample was used
to verify a systemic process. In addition, the population was not needed as we did not intend to quantify the extent
to which the IRS’s corrective action addressed our concerns.


                                                                                                            Page 14
                                Significant Discrepancies Exist
                         Between Alimony Deductions Claimed by Payers
                              and Income Reported by Recipients


Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the controls to identify
discrepancies between alimony deductions claimed and alimony income reported and the
controls to identify alimony deduction claims with a missing or invalid alimony recipient TIN.
To evaluate these controls, we interviewed IRS management, reviewed IRS procedures, and
analyzed individual tax returns claiming alimony deductions.




                                                                                         Page 15
                                Significant Discrepancies Exist
                         Between Alimony Deductions Claimed by Payers
                              and Income Reported by Recipients


                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Kyle R. Andersen, Director
Deann L. Baiza, Director
Bill R. Russell, Audit Manager
W. George Burleigh, Lead Auditor
Laura P. Haws, Senior Auditor
Steven D. Stephens, Senior Auditor
Nikole L. Smith, Auditor
Joseph C. Butler, Information Technology Specialist
Kevin O’Gallagher, Information Technology Specialist




                                                                                          Page 16
                              Significant Discrepancies Exist
                       Between Alimony Deductions Claimed by Payers
                            and Income Reported by Recipients


                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Exam Policy, Small Business/Self-Employed Division SE:S:E:EP
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Program Manager, Policy and Strategic Planning, Communication, Liaison, and Disclosure,
   Small Business/Self-Employed Division SE:S:CLD:PSP
   Chief, Program Evaluation and Improvement, Wage and Investment Division
   SE:W:S:PRA:PEI




                                                                                   Page 17
                                    Significant Discrepancies Exist
                             Between Alimony Deductions Claimed by Payers
                                  and Income Reported by Recipients


                                                                                             Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Revenue Protection – Potential; $351,826,543 in additional income tax assessed for
    230,208 taxpayers during Tax Year 2010 as a result of noncompliance with alimony
    reporting requirements; $1,759,132,715 over five years (see page 4).

Methodology Used to Measure the Reported Benefit:
Using the IRS’s Individual Return Transaction File,1 we identified 567,887 tax returns that
claimed an alimony deduction in Tax Year 2010. Our analysis of these 567,887 tax returns
identified 266,190 tax returns in which it appears individuals claimed alimony deductions for
which the corresponding income was either not reported on a recipient’s tax return or the amount
of the alimony income reported did not agree with the deduction taken. As such, there is a
discrepancy of more than $2.3 billion in deductions claimed without a corresponding income
reported.
To determine the estimated tax effect of unexamined discrepancies between alimony deductions
claimed and alimony income reported, we first reduced the 266,190 tax returns we identified
with questionable alimony deductions by the 6,500 returns with a missing or invalid recipient
TIN because these tax returns are included in a separate outcome below. In addition, we reduced
the 266,190 tax returns by the 10,870 returns that the IRS selected for examination to arrive at a
total of 248,820 returns. We then applied the IRS examination rates noted on page 8 of this
report to the 248,820 returns to estimate the number of tax returns where the alimony deduction
and/or the nonreporting of alimony income are in error.
As of December 31, 2013, the IRS determined that adjustments were made on 56 percent of the
Tax Year2 2010 returns with alimony deductions selected for examination. In addition,
adjustments were made on 83 percent of the subsequent examinations made on the recipients’ tax


1
 A database the IRS maintains that contains information on the individual tax returns it receives.
2
 A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.


                                                                                                        Page 18
                                     Significant Discrepancies Exist
                              Between Alimony Deductions Claimed by Payers
                                   and Income Reported by Recipients


returns. Applying these results to the 248,820 cases, we estimate that an additional
230,208 returns could be assessed additional tax.
        248,820 x 56 percent = 139,339 tax returns with adjusted alimony deductions.
        109,4813 x 83 percent = 90,869 tax returns with adjusted alimony income.
        139,339 + 90,869 = 230,208 total tax returns with potential adjustments resulting from
        the misreporting of alimony payments.
To compute the potential tax effect of the misreporting of alimony deductions, we computed the
average difference between the amount deducted and the amount claimed as income for the
248,820 tax returns. We then multiplied this average difference by the average marginal tax rate
(23 percent) based on the taxable income of the 139,339 tax returns with potential alimony
deduction adjustments.
        $2,128,089,529/248,820 = $8,553 average reporting discrepancy
        $8,553 x 139,339 = $1,191,766,467
        $1,191,766,467 x 23 percent = $274,106,287
To compute the potential tax effect of the misreporting of alimony income, we multiplied the
90,869 tax returns by the average reporting difference per tax return. We were unable to
determine the average marginal tax rate for the tax returns with potential alimony income
adjustments because we do not know what the total income claimed on these tax returns may be.
As a result, we multiplied the estimated total reporting difference by a 10 percent tax rate (lowest
rate in Tax Year 2010).
        $2,128,089,529/248,820 = $8,553 average reporting discrepancy
        $8,553 x 90,869 = $777,202,557
        $777,202,557 x 10 percent = $77,720,256
We estimate the 230,208 taxpayers would be assessed additional income tax totaling
$351,826,543 ($274,106,287 + $77,720,256) as a result of noncompliance with alimony
reporting requirements. We estimate the taxpayers could be assessed $1,759,132,715 in
additional income tax over the next five years ($351,826,543 x 5) as a result of noncompliance
with alimony reporting requirements.




3
 248,820 less the 139,339 tax returns we estimate the IRS will address through verification of the alimony
deduction.


                                                                                                             Page 19
                                     Significant Discrepancies Exist
                              Between Alimony Deductions Claimed by Payers
                                   and Income Reported by Recipients


Type and Value of Outcome Measure:
   Revenue Protection – Potential; $27,485,640 in unpaid tax from questionable alimony
    deductions made on 6,500 taxpayers during Tax Year 2010 that did not include a valid
    recipient TIN; $137,428,200 over five years (see page 9).

Methodology Used to Measure the Reported Benefit:
Using the IRS’s Individual Return Transaction File, we identified 567,887 tax returns that
claimed an alimony deduction in Tax Year 2010. Our analysis of these 567,887 tax returns
identified 3,771 tax returns that claimed an alimony deduction but did not provide an alimony
recipient TIN as required. We also identified 2,729 tax returns where the recipient TIN provided
was invalid.
To determine the tax effect of allowing these potentially erroneous deductions, we used an
average of the 2010 tax rates based on the taxable income average of the exceptions from three
segments: 1) the statistically valid sample4 of 138 Tax Year 2010 paper-filed returns with
deductions less than the examination dollar tolerance (noted above); 2) the population of Tax
Year 2010 paper-filed returns with deductions equal to or greater than the examination dollar
tolerance; and 3) the population of Tax Year 2010 e-filed returns with deductions for any
amount. We then multiplied the tax rate by the projected dollar estimates of alimony deductions
for returns with a missing recipient TIN and returns in which the recipient TIN was invalid.
Figure 1 shows the computation of the estimated taxable income the IRS may have lost as a
result of allowing alimony deductions with missing or invalid recipient TINs.




4
 We selected the sample using a 95 percent confidence level, a ± 5 percent precision, and a 10 percent estimated
error rate to determine a point estimate of 1,537 returns.


                                                                                                          Page 20
                                      Significant Discrepancies Exist
                               Between Alimony Deductions Claimed by Payers
                                    and Income Reported by Recipients


           Figure 1: Computation of Estimated Tax Revenue Lost as a Result
              of Missing or Invalid Alimony Recipient TINs in Tax Year 2010

       3,771 Returns With Missing Recipient TINs
                                    Average Taxable Applicable Average Alimony Number of               Total Tax
                                        Income       Tax Rate     Deduction     Returns                  Effect
        Paper/E-Filed ≥ Tolerance   $       187,489      31%       $         20,786        2,738   $ 17,642,741
          E-Filed < Tolerance       $        39,772      20%       $          2,952            8   $      4,723
           Paper < Tolerance        $        24,656      15%       $          2,935        1,025   $    451,256
                                                                                           3,771   $ 18,098,720

       2,729 Returns With Invalid Recipient TINs
                                    Average Taxable Applicable Average Alimony Number of               Total Tax
                                        Income       Tax Rate     Deduction     Returns                  Effect
        Paper/E-Filed ≥ Tolerance   $       116,348      27%       $         20,152        1,645   $     8,950,511
          E-Filed < Tolerance       $        49,423      21%       $          2,738          572   $       328,889
           Paper < Tolerance        $         4,421      10%       $          2,100          512   $       107,520
                                                                                           2,729   $     9,386,920

                                                                                   Total Returns         6,500
                                                                       Tax Year 2010 Tax Effect $ 27,485,640
                                                                         Total 5-Year Tax Effect $ 137,428,200


    Source: TIGTA analysis of tax returns claiming alimony deductions in Tax Year 2010.

Type and Value of Outcome Measure:
    Increased Revenue – Potential; $324,900 in unassessed penalties for individuals who claimed
     alimony deductions but did not provide a valid alimony recipient TIN during Tax Year 2010;
     $1,624,500 over five years (see page 9).

Methodology Used to Measure the Reported Benefit:
We obtained IRS Individual Master File5 data for the 6,500 Tax Year 2010 returns we identified
that claimed an alimony deduction with a missing or invalid recipient TIN.6 Using this data, we
found that the IRS had not properly assessed the $50 penalty on 6,480 of these taxpayers. The
IRS assessed a penalty on 20 of the 6,500 returns, but for only $5 per return. We provided the
IRS, for analysis purposes, with a sample of the 6,500 tax returns in which the IRS had not
assessed the penalty. IRS management agreed the penalty should have been assessed on these
tax returns.



5
 The IRS database that maintains transactions or records of individual tax accounts.
6
 As noted in the body of the report, the 6,500 returns are based on a review of 4,963 actual returns and a statistically
valid sample of 138 that accounted for an estimated 1,537 returns.


                                                                                                                   Page 21
                                Significant Discrepancies Exist
                         Between Alimony Deductions Claimed by Payers
                              and Income Reported by Recipients


Based on IRS management’s agreement that we properly identified tax returns that should have
been assessed a $50 penalty, we project that 6,480 returns were not assessed penalties totaling
$324,000 (6,480 x $50) and 20 returns were under assessed the penalty totaling $900 (20 x $45).
Over a five-year period, this would result in more than $1.6 million in unassessed penalties
($324,900 x 5) for failure to provide a valid alimony recipient’s TIN.




                                                                                        Page 22
       Significant Discrepancies Exist
Between Alimony Deductions Claimed by Payers
     and Income Reported by Recipients


                                        Appendix V

Example of a Soft Notice




                                               Page 23
                      Significant Discrepancies Exist
               Between Alimony Deductions Claimed by Payers
                    and Income Reported by Recipients




Source: IRS.




                                                              Page 24
                                 Significant Discrepancies Exist
                          Between Alimony Deductions Claimed by Payers
                               and Income Reported by Recipients


                                                                                             Appendix VI

Management’s Response to the Draft Report


                                      DEPARTMENT OF THE TREASURY
                                       INTERNAL REVENUE SERVICE
                                         WASHINGTON, D.C. 20224

               COMMISSIONER
    SMALL BUSINESS/S ELF·EMPLOYED DIVISION



                                            March 10, 2014


    MEMORANDUM FOR MICHAEL E. MCKENNEY
                   ACTING DEPUTY INSPECTOR GENERAL FOR AUDIT

    FROM:                     Karen Schiller /s/ Karen Schiller
                              Commissioner, Small Business/Self-Employed Division

    SUBJECT:                  Draft Audit Report - Significant Discrepancies Exist Between
                              Alimony Deductions Claimed by Payers and Income Reported
                              by Recipients (Audit #201240016)

    Thank you for the opportunity to review your draft report titled: "Significant
    Discrepancies Exist Between Alimony Deductions Claimed by Payers and Income
    Reported by Recipients". We will continue to make improvements to our processes to
    ensure consistent reporting between alimony recipients and alimony payers.

    As your report noted, some individual federal tax returns contain a discrepancy between
    the alimony deductions claimed by payers and alimony income reported by recipients.
    We have implemented a strategy to address this gap which includes usage of a number
    of examination filters which we have developed and refined to isolate the most
    egregious returns for compliance activity. ********************2*****************************
    ********************************************************2******************************************
    ******2*************. We continue to monitor these examination filters to ensure our
    strategy adequately addresses the alimony reporting compliance gap.

    In addition, our strategy to monitor those individuals who continue to misreport alimony
    deductions and/or income now includes procedures to assert penalties in all situations
    where the payer does not provide a recipient TIN. While we agree that sending soft
    notices is a valid alternative approach to address this issue, resource constraints limit
    our ability to test their impact at this time.

    Internal Revenue Code (IRC) Section 215 requires the recipient of alimony payments to
    furnish their TIN to the alimony payer. They, in turn, are required to report that TIN on the tax
    return when they claim a deduction for alimony paid. The IRC does not make the alimony
    deduction dependent on the provision of the recipient's TIN. We, therefore, are


                                                                                                          Page 25
       Significant Discrepancies Exist
Between Alimony Deductions Claimed by Payers
     and Income Reported by Recipients




                                               Page 26
       Significant Discrepancies Exist
Between Alimony Deductions Claimed by Payers
     and Income Reported by Recipients




                                               Page 27
       Significant Discrepancies Exist
Between Alimony Deductions Claimed by Payers
     and Income Reported by Recipients




                                               Page 28
       Significant Discrepancies Exist
Between Alimony Deductions Claimed by Payers
     and Income Reported by Recipients




                                               Page 29
